9^
- 0/
K J.
"f:
V;J

No. '

ir-V

fs

'/a1

A

ginal

Supreme Court. U.S
FILED

JUL 1 7 2020
IN THE

OFFICE OF THE Cl FRir

SUPREME COURT OF THE UNITED STATES

RONALD DEMETRIUS THOMAS
(Your Name)

— PETITIONER

vs.

WILLIAM MUNIZ, Warden,

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

THE UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

RONALD DEMETRIUS THOMAS
(Your Name)

44750 60th Street, West (B4-237L)
(Address)

Lancaster, California 93539
(City, State, Zip Code)

N/A
(Phone Number)

QUESTION(S) PRESENTED

1, In applying Harrington Vs. Richter, 562 U.S. 86((2011), to a habeas corpus
claim based on the state's unreasonable application of Constitutional
standard for
effective assistance of counsel in violation of 28 U.S.C. § 2254(d)(1), can the
federal courts undermine Constitutional guaranteed rights to the Petitioner to find
the state courts' rulings are ea:- reasonable applications of controlling precedent.
2. In applying Harrington Vs. Richter, 562 U.S. 86 (2011) . to a habeas corpus
ciain based on the state's unreasonable application of Constitutional
standard for
effective assistance of counsel in'violation of 28 U.S.C. §.2254(d)(2), can"the federal
courts affirm a possible "tactical choresV, .'.trial counsel made-on the basis of
facts which are known to be false and misleading pursuant to 28 U. S.C. § 2254(d)(1),
underminded by clear and convincing evidence in the state court record.

i.

LIST OF PARTIES

|X] All parties appear in the caption of the

case on the cover page.
[ ] All parties do not appear in the caption of the case on the
cover page. A list of
is the subject of this

12 fon„PwTeding in the court

Petitioner Ronald Demetrius Thomas, is a California State Prisoner
who was
sentenced to 40 years to life following a Jury trial in Alaneda County.
Respondent William Muniz, is the warden at the prison where Ronald Demetrius
Thomas was being incarcerated at the relevant,.times.

.1

ii.

TABLE OF CONTENTS
OPINIONS BELOW.
JURISDICTION....

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE........................................

3
..■-A

REASONS FOR GRANTING THE WRIT.........
CONCLUSION...........................

12
....22

INDEX TO APPENDICES
APPENDIX A

UNITED STATES COURT OF APPEALS, FOR THE NINTH CIRCUIT

APPENDIX B

UNITED STATES DISTRICT

APPENDIX C

THE COURT OF APPEAL OF THE STATE OF CALIFORNIA, FIRST APPELLATE
DISTRICT, DIVISION FIVE.

APPENDIX D

ATTORNEY:GENERAL OF THE STATE OF CALIFORNIA'S RESPONDENT BRIEF

APPENDIX E

APPOINTMENT OF COUNSEL BY FEDERAL COURTS

APPENDIX F

INMATE TRUST STATEMENT REPORT.

COURT, NORTHERN DISTRICT OF CALIFORNIA

iiiv

TABLE OF AUTHORITIES CITED

*

CASES

Burt Vs. Titlow 134 S. Ct 10,(2013)....'...........
Cullen Vs. Pinholster, 563 U.S. 170..................
Flore Vs. White, 531 U.S. 225 (2001)............
Harrington Vs. Richter, 562 U.S. 86 (2011)....
Irwin Vs. Dowd, 366 U.S. 717 (1961)..................
Lockyer Vs. Andrade, 538 U.S. 63 (2003)..........
Napue Vs. Illinois, 360 U.S. 266(1959)............
Pennsylvania Vs. Richie, 480 U.S. 39 (1987)...
Strickland Vs. Washington, 466 U.S. 668 (1984)
Yarborough Vs. Alvarado, 541 U.S. 652 (2004)..

PAGE NUMBER
• 19
12
19
1,3,12,17,19
12
19
21,22
12
3,12,15
12

STATUTES AND RULES

28 U.S.C. § 2254(d)..................................
28 U.S.C. § 2254(d)(1)......................... .
28 U.S.C4§22254(d)(2).............................
United States Supreme Court Rule 10(a)
United States Supreme Court Rule 10(b)
United States Supreme Court Rule 10(c)
Penal
Penal
Penal
Penal
Penal

Cocle
Code
Code
Code
Code

Section
Section
Section
Section
Section

187(a).....................
192.(b)...................
12022.53(a)............
12022.53(b)............
12022.53(c)....... .

3,12
........ i,13,18
li,3,13,19,19
3
22
22
4
20
4
4
4

OTHER

9

CAL.CRIM 371.................................
Barron's Law Dictionary (1995)

14

iv.

CASES

PAGES

Cheney Vs. Washington 614 F.3d 987 (9th. Cir. 2012)

12

People
People
People
People
People
People
People
People
People

15
16
20
21
13
20
20
20
18

Vs.
Vs.
Vs.
Vs.
Vs.
Vs.
Vs.
Vs.
Vs.

Bolin, (1998) 18 Cal. 4th 297............
Coffman-Marlow, (2004) 34 Cal. 4th 1..
Cook, (2006) 39 Cal. 4th 566................
Gutierrez, (2002) 28 Cal. 4th 1013....
Johnson, (1980) 26 Cal. 3d 557............
Landry, (2016) 2 Cal. 5th 52................
Shockley, (2013) 58 Cal. 4th 400.........
Tufunga, (1999) 21 Cal. 4th 935.......
Westmoreland, (1976) 58 Cal.App. 3d 32

V.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judg

ment below.

OPINIONS BELOW
M For cases from federal courts:
tTheep°effio„n atdt

^

°f aPPea‘S apPearS at ApPendix —
ji

F 1 reported at
_________ ___________ ______________ ______ .__________ * QJ*
[ ] has been designated for publication but is not yet reported’ or’
IX] is unpublished.
’ ’
The opinion of the United States district court appears at Appendix
the petition and is

B

[ ] reported at______________
[ ] has been designated for publication but is not yet reported- or
[X] is unpublished.
’ ’
[ ] For cases from state, courts:
The opinion of the highest state court to review the merits appears at
Appendix-------- to the petition and is
V
[ ] reported at ______________
[ ] has been designated for publication but is not yet reported- or
[ ] is unpublished.
’ ’
The opinion of the _
appears at Appendix

to the petition and is

[ ] reported at____
J or,
[ ] has been designated for publication but is not yet reported- or,
[ ] is unpublished.,
,
1.

court

to

to

JURISDICTION
[X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was April 21, 2020
*

• 1

O-i

OAOA

A A

•/

[x] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
-------:--------------------------, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

An application for writ of habeas corpus on behalf of a person in custody
pursuant to judgment of a State court shall not be granted with respect to any
claim that was adjudicated on the merits in State court proceedings unless the
adjudication of the claim(l) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme
Court of the United States; or "(2) resulted in a decision that was based on an
unreasonable determination of the facts in light of the evidence presented in
the State court proceeding." 28 U.S.C.§2254 (d)(l)-(d)(2).
Under 28 U.S.C. § 2254(d), a habeas court must determine what arguments or
theories supported or could have supported, a state court's decision; and then
must ask whether it is possible fairmined jurists could disagree that those
arguments or theories are inconsistent with the holding in a prior decision of
theD.S. Supreme Court.
The standard created by Strickland Vs. Washington 466 U.S. 668
S. Ct. 2052, 80 L. Ed. 2d 674 (1984)

688-694, 104

and 28 U.S.C. § 2254(d) are both

t I

highly

deferential" and when the two apply in tandem, review is doubly so. The Strickland
standard is a general one, so the range of reasonable applications is substantial.
Federal habeas courts must guard against the danger of equating unreasonableness
under Strickland with unreasonableness under § 2254(d).
When § 2254(d) applies, the question is not whether counsel's actions were
reasonable. The question is whether there is any reasonable argument that counsel
satisfied Strickland's deferential standard. Harrington Vs. Richter 562 U.S. 86 (2011)
The United States Court of Appeal has entered a decision in conflict.. with the
decision of another United States Court of Appeal on the same important matter.
Supreme Court Rule, Rule 10 (a).
. •
3.

•

STATEMENT OF THE CASE
Ihe facts sunder lying the conviction, as set forth by the California Court
of Appeal, are as follows:
Alvin Burns was fatally shot on the night of November 20, 2009. The Alameda
County District Attorney filed an information charing the Petitioner Ronald
Demetrius Thomas, with murder (§187) and alleging he had personally and
Intentionally discharged a firearm and caused great injury and death (§12022.53,
subd. (d), had personally and intentionally discharged a firearm (§ 12022.53,
subd. (c)), and had personally used a firearm (§§12022.53, subd. (b), 12022.53,

subd. (a)), (er 33.)
At Petitioner s jury trial, he was tied to the shooting primarily through
the testimony of two eyewitnesses, Z.T. and P.L.I(ER 170-237.)
Sixteen-year-old Z.T. and her teenage cousin P.L. met Petitioner, known as
D" m the fall of 2009. P,L. was being choked by a man on 88th Street in
Oakland, California and Petitioner came to her rescue.(ER 172, 180, 232, 265-266.)
He was carring a small silver gun. The girls went to Petitioner’s house
that night and Z.T. saw him a few times after that...petitioner and Z.T.
spoke
on the phone "probably every other day.(ER 245 271, 302, 303.)
On the night of November 20,. 2009, about a month after meeting Petitioner,
Z.T. and P.L. were celebrating the birthday of Alvin Burns.(ER 171
269.)
After going to McDonald's restaurant and dropping another friend at his
home, Burns and the girls decided to meet Tielee P, who lived at 88th Street
and MacArthuc Boulevard near the Youth Uprising center. (ER 171-174, 198, 250,
298.)
1.,P.L. was declared unavailable a s
was read to the jury . pursuantrto Ca I i fo^n if Evidence Codl'se"? iL* 1191 ?9 +es+imo"*

4.

At the time, Tielee was Z.T.'s boyfriend and P.L.'s best friend." Bums
was driving his Honda sedan, with P.L. riding in the front
passenger seat, and
Z.T. in the back passenger seat.<ER. 172, 175, 198, 250, 286, 290
298.)
Bums parked the car near Tielee's apartment building with the engine still
running.(ER 177, 178, 212, 213, 274.)
About 10 minutes, Z.T. noticed Petitioner walking by and said something
about seeing "D." P.L. recognized Petitioner and called

out to him.(ER 177-178.)

Petitioner approached the passenger side of the car to see who was inside,
leaned in to the open back passenger window, and said "What's Up?" in a
confrontation manner.(ER 180, 181, 185, 219, 274, 275.)
Burns looked up at Petitioner "like he didn't know him." Petitioner was
wearing gold grills on his teeth and a diamond earring in his left ear.(ER 185, 217.)
The car began to roll and Petitioner accused Burns of trying to
run over
his foot. Petitioner pulled out a gun from his hip and shot Burns in the back
of the head. (ER 185, 186 240, 275.)
As far as Z.T. knew, Petitioner and Bums did not know each other., The
car came to a stop against the curb across the street, in front of the Youth
Uprising building. (ER 190,)191

277, 278, 297.)

Bums was slumped in the seat. Blood was everywhere, P.L. unsuccessfully
attempted to pull Burns's foot from the gas pedal but was able to do so, so she
pulled the key from the ignition.

(ER 192, 277, 278.)

Tielee told her Petitioner was the shooter and had been taking drugs and
was drinking, (er 191, 249, 250, 251.)
The Police were dispatched to the scene of the shooting. Bums was taken
to the hospital, where he later died of-a-gunshot wound to the head. (AOB 3.)
An expended bullet was found on the floor of the car in front of the driver's
seat and a spent 40 caliber casing was found in a gutter across the street,
5.

indicating the weapon used was a semiautomatic. No weapons were found in Burns's
car*(AOB 3.)
Z.T. and P.L.

gave written statements at the scene, bat did not say tney

knew the shooter, (g ^OB 3.)
Ihey were placed in different patrol cars and taken to the Police station
for questioning, where they were separately interviewed. Z.T. seem antagonistic
and scared and did not want anyone to know she was at the Police station.(RAOB 3 )
P.L. seemed upset and withdrawn. Z.T. held back at first because she scared,
but eventually she told Police it was Petitioner who had shot Burns. P.L. was
afraid of retaliation if she identified the shooter, and did not give Petitioner's
name at first.(RAOB 3, 4.)
She eventually admitted she knew the shooter and identified Petitioner.
Both girls selected Petitioner's picture from a photographic line up.(RAOB 4.)
A few days after the shooting, officers approached Petitioner to arrest him
as he was leaving a movie theater., Petitioner ran down a ravine behind the
theater, but was taken into custody after he tripped and fell.(RAOB 4.)
Petitioner was wearing a diamond earring in his left ear and officers found
a set of gold grills and a cell phone in his pants pocket.(RAOB 4.)
A second cell phone, later associated with Petitioner, was found about 30 to
45 feet away. (RAOB 4.)
Police searched the home of Petitioner's girlfriend, who was with the
Petitioner at the time of his arrest, and found a birth certificate, social
security card, and an identification card for the Youth Uprising center, all in
Petitioner's name. (RAOB 4.)
The cell phone records showed that calls were made from Petitioner' s and
Z.T.' s phone near the time of the murder that utilized the
same cell phone
tower, suggesting the phones were in the same area, though other calls made
6.

from Z.T. s phone during that time frame utilized a different, nearby tower. ((RAOB ft-)
The records also showed calls were made from Petitioner’s cell phone to
Z.T.'s cell phone that same night after the shooting in which the caller from
Petitioner’s phone blocked the number. (RAOB 4.)
Calls were made from Z.T.'s phone to Petitioner's phone between 4:25 a.m.
and 6:11 a.m. on November 22, 2009. (RAOB 4.)
P.L. told the Police she received a threatening call a couple of days
after the shooting from a woman with a high-pitched voice who said, "Bithch",
you are going to die." (RAOB 4.)
The voice sounded similar to one of the bystanders who helped them at the
scenes after the shooting. (RAOB 4.)
P.L. was 100 percent positive Petitioner was the shooter. She did not talk
to Tie lee after the shooting. (RAOB 5.)
Z.T. did not received any threats, though Petitioner and other people called
her. She had not. answered her cell phone because she did not want to talk about
what had happened. (RAOB 5.)
She liked Petitioner as a friend and thought both he and Burns were nice
people. Z.T. had not spoken to Tielee since the shooting. She had no doubt
Petitioner was the shooter. (RAOB 5.)
After givingan Opening Statement suggesting the evidence would show that
itioner was not at the scene of the crime, defense counsel called a single
witness, DeAnna Asnorobi, who testified Petitioner was a friend of her daughter's
and she had known the Petitioner since he was 15 years old. (RAOB 5.)
Ashorobi had never heard of -Petitioner being violent and had never known
him-to carry a gun. (RAOB 5.)
Ashorobi, believed Petitioner to be a good kid, mild mannered, and respectful,
however, she mad not heard of Petitioner owning or carrying guns, she had not
7.

heard that Petitioner had been involved in fights with a gang, she had not heard
of/the.Petitioner's-involvemnt in a kidnapping, she had not heard that Petitioner’s
father and others held the kidnapping victim and fired shots at the victim's
boyfriend when he arrived to retrieve the victim, she had not heard that Petitioner
had held the kidnapping victim at gunpoint and threatened her when he released
her. (RAOB 5.)
If she has heard about the kidnapping and gun possession, it would affect her
opinion and she would assume he was violent if he went to jail or prison for such
conduct. (RAOB 5.)
Ashorobi had heard about the current homicide, but this did not alter her
opinion because Petitioner had not been found guilty and she did not see him as
the kind of person who would shoot someone in the head. (RAOB 5.)
Ihe jury was instructed on first and second degree murder and firearm :
enhancement allegations»'(ra0B 5.)
The jury acquitted Petitioner of first degree murder, and convicted him of
second degree murder, and found the enhancement allegations to be true. (MOB 5,6.)
Prior to sentencing, the court granted Petitioner's motion to relieve his
retained trial attorney and substitute new retained counsel. (MOB 6.)
This attorney filed a motion for a new trial, asserting the trial attorney
had provided ineffective assistance of counsel in several respects, including
41) presenting an opening statement promising an alibi defense that never
materialized; (2) calling Ashorobi as a character

itness, knowing she would be

impeached with highly prejudical "have you heard" questions about prior criminal
acts and possession of firearms by Petitioner; and (3) failing to object to
CALCRIM No. 371 regarding consciousness of guilt and threats to a witness by, a
third party.(RAOB 6.)
The trial court denied the motion. It stated it had some concerns with the
8.

defense strategy of calling Ashorobi as a character witness, but that overall,
some positive things came from her testimony in that she tended to humanize the
Petitioner.(RAOB 6.)
And, though the court had "significant concerns" and was"bothered" about the
decision to go forward with an opening statement promising an alibi defense, any
error was harmless in light of the very strong and believable testimony by Z.T.,
which was corroborated by the preliminary hearing testimony of P.L., and the jury's
verdict of second, rather than first degree murder.(RAOB 6.)
Ihe Court noted if Petitioner testified and offered an alibi defense (as he
apparently wished to do before his trial attorney convinced him not to take the
stand), he would have been impeached by prior statements to the Police as well as
prosecution witnesses who would have shown the substance of the alibi was "based
on lies."(RAOB 6.)
As to counsel’s failure to object to CALCRIM No. 371 by a thrid party, the
court recounted its discussion of the instruction with counsel and indicated the
instruction was appropriate.(RAOB 6,7.)
Petitioner was sentenced to prison for 40 years to life, consisting of a
term of 15 years to life on the second degree murder count plus a consecutive
term of 25 years to life for the finding he had intentionally and personally
discharged a firarm causing death under section 12022.53, subdivision (d)(ER 19-22.)
(RAOB 7.)
CALIFORNIA COURT OF APPEAL.
The California Court of Appeal issued its unpublished decision affirming
Petitioner's conviction on July 10, 2014.(ER 19.)
The Court of Appeal rejected the ineffective assistance of counsel claim

2. Petitioner refer to the Excerpts of Record filed herein as ER,
the. Clerk's
Records from the United States District Court
as CR, the Court of Appeals, Ninth
Circuit Record as AOB and evidentary record
as DKt filing nutnberi: Respondent'sResponse, as RAOB.

9.

correctly citing Strickland Vs. Washington 466 U.S. 668 (1984) as the controlling
United States Supreme Court authority:
The Court of Appeal held, we share the trial court's concern about defense
counsel's decision to suggest an alibi‘defense when it appears he should have
known at the time of the Opening Statement it would be improvident for Petitioner
to testify. (EOR 24.)
Ultimately, though, we need not resolve whether counsel's action fell beyond
the range of reasonable trial tactics because any error in making the Opening
Statement was harmless. (EOR 24.)
The Court of Appeal adopted the trial court's findings that the two witnesses
were credible in the!/identification of Petitioner as the shooter, and the
prosecution presented "very strong evidence indeed, including corroborating
circumstantial that petitioner's cell phone was in the area at the time of the
murder.

(ER 25.)

The Court of Appeal concluded in light of this "substantial evidence"
that it was not reasonably probable Petitioner " would have sucured an acquittal "
without counsel's errors. (ER 25.)
THE UNITED STATES DISTRICT COURT
The district court assumed it was deficient performance for defense counsel
" to suggest an alibi defense," but agreeLd.J with the findings of the trial court
and the California Court of Appeal" that Thomas cannot demonstrate prejudice."
(ER 12.)
The district court continued, "Thomas cannot meethisvburden'of showing
that had counsel not made the error, the result of the proceeding would have
3 . The Court of Appeal

is the last reasoned decision of the State Court.

10.

been different. •
tod counsel not mentioned the untimately never presented alibi defense,
there was still "substantial evidence" of Thomas’s guilt as ducussed above.
Thomas has not demonstrated that the state court decision was an unreasonable
4

application of Strickland; therefore the claim is denied. (ER 12.)
THE UNITED STATES COURT OF APPEALS NINTH CIRCUIT
The United States Court of Appeal For the Ninth Circuit granted Certificate
of Appealability (COA) on December 21, 2018.
On April 21, 2020, The United States Court of Appeals, For The Ninth Circuit
Affirmed Petitioner’s conviction based on the information found in the California
Court of Appeal's Opinion and the United States District Court s Order to Denied.
(Appendix A.)
•

4. The Petitioner gave a taped statement to the Oakland Police Department, of
atibiiwitnesses who would support his claim that he was not present at the crime
scene at the time, that the murder took placed.
The Oakland Pblice Department conducted an investigation and tooked a taped
statement from the two witnesses.
Terry P. gave a taped statement that he did not havei'a cell phone at the time.
He had a residential phone only, and Petitioner had came to his home onathe day
in question, but had left immediately,which contrdict Petitioner s statement that
he was afvT:erry Pis house until the early morning and was picked up by a yopng
lady. -Mhere was an actual call from Petitioner's cell phone to f !,e rry ' s T ft 6 u
se \
suggesting that he was not at the residence during the time of this alibi.
The Okaland Police Department conducted a taped interview with the Petitioner's
second alibi witness N.J. the Petitioner's girlfriend at the time, N.J. gave a
statement that she had not seen the Petitioner etnasbveitat days
> : and the text
messages in Petitioner's cell phone between
N.J. and Pet i t i oner aadm'i tted in
to court as evidence show Petition er and N.J. was actually texting one another
at the time Petiti oner claimed that he was with N.J.

11.

REASONS FOR GRANTING THE PETITION

A defendant has a Sixth Amendment right to the effective assistance of
counsel. Irwin Vs. Downd, 366 U.S. 717, 121-122 (1961); Pennsylvania Vs. Richie,
480 U.S. 39, 51 (1987). To prevail on a claim that Petitioner was denied that
right, Petitioner must establish two things, first, that counsel's performance
was deficient, i.e., that it fell below an "objective standard of reasonableness"
under prevailing professional norms; and second, that he was prejudiced by counsel's
deficient performance, meaning "there is a reasonable probability that, but for
counsel's unprofessional errors, the result of the proceeding would have been
different. " Strickland, supra at 688, 694. A reasonable probability is one
sufficient to undermine confidence in the outcome." Id.
A ''doubly"deferential judicial review applies to such a claim under § 2254 .
Cullen Vs. Pinholster, 563 U.S. 170, 202..(2011); Harrington Vs. Richter, 562
U.S. 86, 105 (2011). Strickland's general directive to use great deference in
reviewing counsel's effectiveness allows state courts greater leeway in applying
that rule, narrowing the range of?decision that are objectively unreasonable
under AEDPA. " Cheney Vs.. Washington, 614 F.3d 987, 995 (9th Cir 2010) (Citing
Yarborough Vs. Alvarado, 541-U.S. 652, 664 (2004). "[T]he question is not whether
counsel s actions were reasonable. The question is whether, there is any reasonable
argument that counsel satisfied Strickland's deferential standard ."
The state and federal courts all found that Petitioner's trial counsel's :
performance was deficient, i.e., fell below an objective standard of reasonableness
under prevailing professional norms, but found that Petitioner did not meet the
second prong under?Strickland that if not for counsel's unprofessional errors,
5

he would have been able., to ^secured an acquittal in light of the "substantial - .
-5- The U.S. District Court and U.S. Court of Appeal use the word prejudice instead
of acquittal" in its
Order to Denied and Affirmed (Appendix A and B)

12.

evidence" (..ER 25.)
• In reviewing the sufficiency of the evidence on appeal, the California
Appellate Courts, "must review the whole record in the light most favorable
to the judgment to determine whether it discloses substantial evidence - that
is, evidence which is reasonable, credible, and of solid value - such that a
trier of fact could find the defendant guilty beyond a reasonable doubt."
People Vs. Johnson (1980) 26 Cal.3d 557, 578.
When reviewing the sufficiency of the of the evidence on appeal, the
California Appellate Court Vs;. decision involved an unreasonable application of
state law., and the holding of the United States Supreme Court. 28 U.S.C. 2254(d)(1)
The California Appellate Court, found that the witnesses testimony in
this case was reasonable, credible, and of solid value to support that
Petitioner had committed the murder of Alvin Burns, but failed to established
beyond a reasonable doubt under the "substantial evidence" that the jury
in this case would have still found the essential elements of second degree
murder if not for trial counsel's deficient performance where the proceedings
would not been different. (EP* 25.)
The California Appellate Court's decision is based on an unreasonable
determination of the facts in light of the evidence before the state courts.
28 U.S.C. 2254 (d)(2).
The facts of the case showed (1) The Petitioner was on drugs and.been
drinking and was talking with a slurred voice, when Z.T. had called him to
the car. (ER 177, 178, 180, 181, 185,'212, 219, 274, 275.)
(2) Petitioner went to the car and leaned‘into the .open window on the
passangers

side and said what1 s up ? who is that? in a confrontational manner.

(ER 180, 181, 185, 219, 274, 275.)
13.

(3) Alvin Burns looked at Petitioner but did not say anything, and at
that moment, Z.T. opened the car door to get out of the car in which she had
set her foot outside of the car door. At the same time she was getting out of
the car Alvin Burns begin to roll the car forward hitting the Petitioner
forcing to fall to the ground where both girls heard Petitioner telling Alvin
Burns that he was rolling over his foot, and as the car continue to move
forward ta'accelerate, Petitioner fired single.)shot. (ER 185, 186, 189, 240,
275, 309.)
(4) A reasonable Judge or Jury could have found that Alvin Burns had used
his car as a weapon, when he struck Petitioner causing him to fall to the
ground and again when he ran over his foot, and Petitioner had shot a single
shot in an attempt to stop further injury to his person and to Z.T. who was
also in the process of getting out of the car when Alvin Burns begin to drive
off. (ER 185 - 189, 240, 275, 309.)
(5) Under the trier of facts, the jury would have been instructed with
jury instructions relating to VoluntaryManslaughter- where the accused kills
in fear or in the heat of passion as a result of the deceased's provocation.
(6) Under the trier of facts, the jury would have been instructed with
jury instructions relating to Petitioner's intoxication during the time of
the incident. In criminal law, voluntary intoxication is no defense against
crimes of general intent, but may operate to refute the existence of mens rea
necessary for crimes of "spectic intent". Intoxication may also be a mitigating
factor reducing punishment meted out for certain crimes. Barron's Law
Dictionary. (1995).
(7) Under'the trier of facts, there-ist reasonable probility that - :
Petitioner would have not been convicted of second degree murder, if not for
trial counsel's errors.
14.

(8) Under the trier of facts, there is a reasonable probablity that
Petitioner would not received a true findings on all firarm enhancements •
Sf:personally and intentionally discharged of a

firearm causing death

while intoxicated off drugs and alcohol, and provocation by the deceased
running him over with his car, if not for trial counsel's errors.
By trial counsel telling the jury in his Opening Statement that he
would present an exonerating alibi (evidence, that he had no intentionsof
presenting, trial cousel deprived the Petitioner of a fairitEialnthatswould
have resulted in a different outcome of the trial proceedings based.upon the:
trier of facts of the case* Strickland;¥s?.._:Washingt0n^::466--UnSS 687t689»

I'ic

l.r
II.
THE STATE COURT UNREASONABLY APPLIED THE FACTS TO THE LAW
WHEN TRIAL COUNSEL CALLED DEANNA ASHOROBI AS A CHARATER WITNESS

The California Court of Appeal considered and rejected this claim as
follows:
Appellant contends defense counsel was ineffective in calling Ashorobi
as a charater witness, knowing should would be cross-examined with a series
of "have you heard" questions about a "litany of unsavory behavior on
Appellant's part. "The decision to call a particular witness is generally
a matter of trial tactic "unless the decision result from unreasonable
failure to investigate. People Vs. Bolin, (1998) 18 Cal. 4th 297, 334.
The decision to call Ashorobi does not appear to be the product of
ignorance on the part of defense counsel, who knew in advance she would be
impeached by the "have you heard" questions.
Even assuming the tactical decision to call Ashorobi was unreasonable,
Appellant has failed to demonstrate prejudice for the reasons stated in the
15.

preceding section of this opinion.
Given the evidence presented, and the strength of Z.T.'s testimony in
particular, there was very little potential for a verdict other than first
or second degree murder.
Ihe jury chose the lesser of these options, showing it was not unduly
swayed by the prosecutor's references to the prior kidnapping and pessession
°f firearms. The trial court specifically instructed the jury it could not
consider the prosecutor's questions for the truth of the matters asserted.
Though, as Appellant's notes, the prosecutor referred to this line of
cross-examination during closing argument, the jury was instructed the
attorney's remarks during Opening Statement and closing argument were not
evidence.
We presume the jury followed these admonitions. People Vs. Coffman and
Marlow, (2004) 34 Cal. 4th 1, 83. (ER 25 - 26.)
The "have you heard ■ questions asked by the prosecution to Ashorobi
in parti
Q.

Now, didryou heard that back in March 2009 the defendant, Ronald Thomas
was involved in a kidnapping where they kidnapped a woman by the name of
Erica Walton and held her as a hostage?
A.

No, I have not.

Q.

Did you hear that specifically on the date of March 31, of 2009, the

defendant, Ronald Thomas, his father and several other people took Miss
Walton to 90 Lund Avenue which was an aprtment building, made her sit in
her car, and while she was sitting in that car when her boyfriend arrived
on the scene shots were fired at the boyfriend? Did you hear that?
A.
Are you meaning this case or-the only, thing I know of right now is
what he's being charged with right now. That's the only thing I'm aware of.
16.

THE COURT: So your answer is "no" you haven't heard about those alleged
events from March of 2009?
. THE WITNESS: No.
THE COURT: Next question.
Q.

Did you hear on the date of April 1, 2009, the defendant, Ronald Thomas

held miss Walton at gunpoint?
A.

No sir, I have not.

Q.

Did you hear that on the date of April 2, 2009 the-defendant, Ronald

Thomas, agreed to release Erica Walton and he did this by

of phone, but he

said to her when he said to her when he agreed to release her is ..."We don't
want anyone-no one's going to hail here, don't go to the cops, and if you do
go to the cops, we will kill you."
A.

No, I have not heard that.

Q.

And you re not saying it didn't happen, you're saying you didn't heard

it?
A.

I have no knowledge of that, no.
P.L. was declared unavailable as a witness and her testimony was read

to the jury.

pursuant to Penal Code Section 1291.

The Court of Appeal's:opinion that Petitioner: has failed to demonstrate
prejudice under the -.'substantial Evidence'' Standard" was unreasonable under
28 U.S.C.§ 2254(d)(2). Harrington Vs. Richter,562 U.S. 86,(2011).
j.

The Petitioner was never charged, convicted, or even questioned by. law

enforcement officers about a kidnapping of Erica Walton.
By allowing the jury to hear "have you heard" questions about a kidnapping
of Erica Walton and alleging that the Petitioner had committed the kidnapping
and threaten Erica Walton not to go to the cops or she would be killed.
The Prosecution and trial counsel allowed the jury to have a false
impression

that Petitioner shad,.kidnapped .P.L. in order to prevent her from
17.

coming to court to testify.
.The California Court of Appeal, noted that it is well established that
a conviction should .be reversed where the evidence shows the prosecution
silently allows misleading impression to be presented to the jury, "it is
settled that due process proscribes a criminal conviction obtained through
prejured testimony knowingly used by the prosecution against the accused.
People: Vs.:Westmoreland, .,(1976) 58 Cal.App. 3d 32, 42.
In fact, outright falsity need not be shown if the testimony taken as
a whole gave the jury a false impression, [citation omitted.]
Thus, a denial of due process can result if the prosecution, although
not soliciting false evidence, allows a misleading and false impression to go
uncorrected when it appears, it matters little that the false impression
goes only to the credibility of a prosecution's witness or that the prosecution
silence was not the result of guile or desire to prejuice." People Vs.
Westmoreland, (1976) 58 CalApp. 3d 32, 42.
In this case the prosecution or trial counsel did not correct the
misleading impression that Petitioner had kidnapped and threaten Erica Walton, .
or P.L that was unavailable to testify at Petitioner's trial,which deprived
the Petitioner of due process of law.

III.
THE UNITED STATES COURT OF APPEALS HAS DECIDED AN IMPORTANT
QUESTION OF FEDERAL LAW IN A WAY THAT CONFLICTS WITH RELEVANT
DECISIONS::, OF THIS COURT.

Under 28 U.S.C.§; 2254(d)(1), a habeas court must determine what argument
or theories supported or as here, could have supported, the state court's
decision; then it must ask .whether it is -possible fairmined jurists could
disagree that those arguments or theories are inconsistent with the holding
18.

in a prior decision of this court. Harrington Vs. Richter, 562 U.S. 86, Lockyer,
Vs. Andrade, 538 U.S. 63, '71 (2003).
A federal habeas court must use "a' doubly deferential' standard of review
that gives both the state and the defense attorney the benefit of the doubt!1"
Burt Vs. Titlow, 134 S. Ct. IQ 13 (2013).
The United States Supreme Court held that where, as here, a state high
court's decision"

"did not announce a new rule of law" 'but rather" merely

clarified the plain language of the statute,"

" the Due Process Clause of the

Fourteenth Amendment forbids the state from convicting a defendant"

for

conduct that its criminal statute, as properly interpreted, does not prohibit . .'‘
Fiore Vs..White,.531 U.S. 225, 228.(2001).
Under federalilaw is was clearly established that Due Process-guarantees
require reversal of a conviction [that is not supported by the substantial

"4

evidence standard.] regardless of the Attorney General's arguments. Fiore Vs.
White, 531 U.S. 225 (2001).
.

The United States Court of Appeals found under the substantial evidence

standard, that there was strong.evidence to support that Petitioner had. committed
the shooting of Alvin Burns, but did not find the essential elements of the
allegation of second degree murder was proven beyond a reasonable doubt basedupon the trier' of facts of the case, where the Petitioner kills in fear or in
the heat of passion as a result of the deceased's provocation where he had
struck the Petitioner twice with his car. (Appendix A. page 3) 28 UsSs-G?§’/,'2-2544<i)(2).
The United States Court of Appeals's - Order to Affirm was objectively - . .
unreasonable, where there are no Supreme Court holding that authorized a trial
counsel to make misleading or false statements to a jury as a tactical decision.
28 U.S.C. § 2254(d)(2).
The United States Court of Appeal also held, We do not fault the district

19.

court s observation that without the charater witness testimony, it is feasible
that the jury would have elected to find Petitioner guilty of the higher charge
of first - degree murder. Moreover, the state court reasonably determined that
even if trial counsel 's was deficient, it did not result in prejudice to

-

Petitioner because of the overwelming evidence condemning him. (Appendix A.

page

4.)
The United States Court of Appeals's Order to Affirm was objectively
unreasonable, where there are no Supreme tourt holding that authorized a trial
counsel to present character witnesses knowing that the prosecutor would
impeach its witness or witnesses with misleading or false questions against
his client under "have you heard'.'

28 U.S.C. § 2254(d) (2).

A-tfial court. h§s:a §ua;;spqfite duty to ^'instruct on a lesser offense
necessarily included in the charged offense if there is substantial evidence
the defendant is guilty only of the lesser. [Citation,] Substantial evidence
in this context is evidence from which a reasonable jury could conclude that the
defendant committed the lesser, but not the greater, offense." People Vs.
Shockley, (2013) 58 Cal. 4th 400, 403, italics added.
In reviewing the sufficiency of the evidence for this purpose, the court
resloves any doubt in the defendant's favor. People Vs. Tufunga, (1999) 21
Cal. 4th 935, 944.
Regarding second degree murder, "a finding of implied malice require
only an 'intent to do an act dangerous to human life with conscious disregards
of its danger,

f It

People Vs. Landry, (2016) 2 Cal. 5th 52, 96.

For involuntary manslaughter, a person committs the crime "either by
committing 'an unlawful act, not amounting to a felony' or by committing 'a
lawful act which might produce death, in an unlawful manner, or without due
caution and circumspection.' (§ 192, subd. (b)" People Vs. Cook, (2006) 39 Cal.
20.

4th. 566, 596.
Generally, involuntary manslaughter is a lesser included offense of
murder. People Vs. Gutierrez, (2002) 28 Gal. 4th 1083, 1145.
Under the Substantial Evidence Standard, The United States Court of
Appeals's Order, to Affirm was objectively unreasonable where the Court did
applied the United States Supreme Court holding under in Napue Vs. Illinois,
360 U.S. 264 (1959) Where a conviction obtained through use of false testimony
know to be such by the representatives of the State,, though not soliciting
false evidence, allows it to go uncorrected when it appear. Napue Vs. Illinois
360 U.S. 266.
The Supreme Court held, It is of no consequence that the falsehood
bore upon the witness' credibility rather than directly upon defendant's
guilt. A lie is a lie, no matter what its subject, and, if it is in any way
relevant to the case, the district attorney has the responsibility and duty
to correct what he knows to be false and elicit the truth. *** That the
district attorney's silence was not the result of guile or a desire to
prejudice-matters little, for. its impact was the same
did,

preventing, as it

a trial that could in any real sense be termed fair. Napue Vs. Illinois,

360 U.S. 269, 270.
In applying whether there is any reasonable argument
satisfied Strickland's deferential

that counsel

standard under Harrington Vs. Richter,

563 U.S. 86, it was clearly established that the false or misleading evidence
provided to Petitioner's jury by trial counsel in its opening statementtthat:
(l) Petitioner was not present at the crime scene, (2) that the evidence will
show that Petitioner was somewhere else required that it be corrected when it
appeared to the jury, that it was counsel's conduct and not that of the
Petitioner. Napue Vs, Illinois 350 U.S. 266.
It was also clearly established

that the false statements that the
21.

Petitioner had kidnapped Erica Walton, and told her not to go to the cops, and
if she do go to the cops, we will kill you required to be corrected when it
appeared before the jury as the Petitioner's character. Napue Vs. Illinois, 360
U.S. 266.
The false questions under 'have you heard, II that Petitioner had kidnapped
Erica Walton, and threaten to kill her if she go to the cops, prejudice the
Petitioner, because the jury was lead to believe that Petitioner would act with
malice, instead of fear, or in the heat of passion in order to support the
prosecutor's case for a conviction of first or second degree murder, instead
involuntary manslaughter, which deprived Petitioner of Due Process of Law.
CONCLUSION

The petition for a writ of certiorari should be granted, in accordance to Supreme Court
Rules of Court, Rule 10(b)r(c).
Respectfully submitted,

Date:

)i/i7ao30

22.

